OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID/REGIONAL
DEVELOPMENT MISSION FOR
ASIA’S SAPAN PROGRAM IN
THAILAND

AUDIT REPORT NO. 5-493-12-004-P
FEBRUARY 27, 2012




MANILA, PHILIPPINES
Office of Inspector General


February 27, 2012

MEMORANDUM

TO:                  USAID/Regional Development Mission for Asia’s Mission Director, Michael Yates

FROM:                Regional Inspector General/Manila, William S. Murphy /s/

SUBJECT:             Audit of USAID/Regional Development Mission for Asia’s Sapan Program in
                     Thailand (Report No. 5-493-12-004-P)

This memorandum transmits our final report on the subject audit. In finalizing the audit report,
we considered your comments on the draft report and have included those comments in their
entirety in Appendix II of this report.

This report contains nine recommendations to assist the mission in improving the efficiency and
effectiveness of its program. On the basis of information provided by the mission in its response
to the draft report, we determined that final action has been taken on four recommendations—1,
2, 5, and 9, while management decisions have been reached on the remaining five
recommendations—3, 4, 6, 7, and 8. Please provide the Audit Performance and Compliance
Division of USAID’s Office of the Chief Financial Officer with evidence of final action to close the
open recommendations.

I want to thank you and your staff for the cooperation and courtesies extended to us during this
audit.




U.S. Agency for International Development
PNB Financial Center, 8th Floor
Roxas Blvd. 1308 Pasay City
Metro Manila, Philippines
www.usaid.gov/oig
CONTENTS
Summary of Results ................................................................................................................. 1

Audit Findings ........................................................................................................................... 3

     Program Lacks a Defined Strategy for Providing Technical Capacity Building ....................... 3

     Program Reporting Did Not Meet Standards ......................................................................... 4

     Contractor Did Not Adequately Monitor Activities .................................................................. 7

     Program Follow-up and Communication Did Not Meet Participants’ Needs........................... 8

Evaluation of Management Comments.................................................................................. 10

Appendix I—Scope and Methodology ................................................................................... 12

Appendix II—Management Comments .................................................................................. 14
SUMMARY OF RESULTS
Thailand is in the midst of rapid and dramatic political change and there have been five
governments since 2006. There are thousands of civil society organizations (CSOs) in
Thailand, though they have not yet had opportunities to expand their activities or constructively
engage in policy debate, their right to which was codified in Thailand’s 1997 constitution. One
reason CSOs are weak, particularly in the deep south, is that while the Royal Thai Government
supports community development organizations, it does not support issue-based advocacy
groups that serve as a check and balance to the government. This lack of support, in addition
to the phase-out of donor-provided support in the mid-1990s, has diminished the ability of CSOs
and the media to play a watchdog role.

The frequent changes in government in the recent past, as well as limited resources, have also
weakened independent government oversight agencies. These independent agencies, if
strengthened and linked with CSOs and academic institutions, could play a key role in providing
government oversight.

On March 29, 2010, USAID/Regional Development Mission for Asia awarded a 3-year,
$19.7 million contract (with 2 optional years together worth $10.7 million) to Development
Alternatives Inc. to implement a program meant to foster constructive civil society engagement
with the Royal Thai Government. As of July 2011, cumulative obligations and disbursements
under the program totaled $13.8 million and $4.1 million, respectively.

The Sapan Program—sapan means bridge in Thai—aims to accomplish this objective by (1)
enhancing the capacity of key independent agencies (such as the Office of Auditor General and
the National Anti-Corruption Commission) to provide effective government oversight, (2)
strengthening the capacity of Thai CSOs and the media to serve as checks and balances for
political processes and public policy, and (3) supporting civil peace-building efforts that will
diminish the potential for radicalization and escalation of violent conflict in southern Thailand.

The objective of the audit was to determine whether the program was achieving its main goals
as described in the objectives above.

After reviewing the program’s current performance management plan, the audit team
determined that the program had made limited progress in achieving its goals. No peace-
building efforts had been reported. Factors limiting progress—largely outside the mission’s
control—included (1) less developed CSOs than originally anticipated, (2) initial public
misgivings about USAID and a lack of confidence in its intentions, (3) challenges in establishing
viable partnerships in the deep south, and (4) the cultural practice of deferring to one’s
superiors, which discourages individual initiative.      The program also had to re-create
relationships with stakeholders after approximately 15 years of essentially no in-country
participation from USAID. These challenges delayed implementation and forced program
officials to take a more cautious approach than planned.

Despite these challenges, the program has shown to be adaptive and flexible, responding to a
different situation than anticipated in terms of the capacity of CSOs. Rather than continue to
primarily focus on a core group of CSOs, program officials modified their approach to more
deeply involve Thailand’s universities, which act as neutral third parties networking between



                                                                                                1
independent government agencies and CSOs. This modified approach encourages a greater
level of collaboration and accessibility with the CSOs through the intermediary universities.

While some factors were outside the mission’s control, the audit identified others that the
mission needs to address:

   The program lacks a defined strategy for providing technical capacity building (page 3).

   Program reporting did not meet standards (page 4).

   The contractor did not adequately monitor activities (page 7).

   Program communication and follow-up did not meet participants’ needs (page 8).

The report recommends that USAID/Regional Development Mission for Asia:

1. Revise the Sapan Program’s performance management plan to include performance
   indicators that reflect all the program’s activities. All indicators should be precisely defined
   so that reported results accurately reflect intended accomplishments (page 4).

2. Develop and implement a strategy to shift training to capacity-strengthening activities for
   independent government agencies, CSOs, and the media (page 4).

3. Adjust targets in the performance management plan to reflect the change in the reporting
   period (page 5).

4. Require the contractor to meet deadlines for reporting results (page 6).

5. Establish ambitious but realistic end-of-program targets for all output and outcome indicators
   included in the performance management plan (page 6).

6. Obtain and report baseline data for all ten outcome indicators included in the performance
   management plan (page 6).

7. Work with its contractor to improve its procedures for monitoring Sapan Program-sponsored
   activities. These improved procedures would include closely tracking the participation of
   training recipients to verify that they receive intended instruction and are not paid when they
   do not attend (page 8).

8. Quantify the funds spent on flights, hotels, and per diem for the 28 individuals without
   adequate evidence of attending the sponsored training courses. If the mission determines
   that these expenses are unallowable, it should collect, as applicable (page 8).

9. Work with its contractor to establish and implement an action plan for communicating with
   program participants and conducting follow-up to maximize the effectiveness of sponsored
   activities (page 9).

Detailed findings follow. The audit scope and methodology are described in Appendix I. Our
evaluation of management comments is included on page 10, and the full text of management
comments appears in Appendix II.



                                                                                                 2
AUDIT FINDINGS
Program Lacks a Defined Strategy
for Providing Technical Capacity
Building
To achieve the program’s two capacity-building objectives, the contract states that the
contractor must provide training and other direct technical assistance to build:

   Specialized skills associated with improving policies and procedures and with overseeing
   and enforcing laws and regulations (for independent agencies).

   Organizational capacity in developing issue-based campaigns, monitoring human rights, etc.
   (for CSOs).

Originally, the program envisioned working with a core group of CSOs in different regions of
Thailand that would then reach out to a larger pool of organizations. Program representatives
soon found out, however, that Thailand’s CSOs were far less developed than anticipated. To
adapt to this situation, and in response to other implementation difficulties, the program
introduced an empowerment training course called OPERACY—not an acronym, but a name
unto itself—to introduce new ideas to potential program participants, increase their exposure to
USAID, and enhance their receptiveness to the development of technical capacity.

The OPERACY course aims to improve personal happiness, performance, and productivity in
the family, workplace, school, and community by improving participants’ skills and changing
limiting attitudes and beliefs. Upon completion of this 5-day course, participants are expected to
be more confident, proactive, productive, and responsible in performing their duties. Following
the course, however, the program does not appear to have followed up with participants to drive
home the key messages incorporated in the training or to initiate any technical skill building.

Despite the program’s revised approach—incorporating OPERACY training to reach out to
organizations and to act as a bridge to technical capacity building—the program’s revised
performance management plan does not reflect these new activities because program officials
felt the OPERACY training fit under technical capacity building, which it does not. Without
developing appropriate indicators to measure the effectiveness of skill-building activities,
program personnel have instead been inaccurately reporting OPERACY training participants as
having gained capacity in promoting transparency and accountability, as well as in
management, communication, and planning—topics unrelated to OPERACY’s curriculum to
improve personal happiness, performance, and productivity.

One reason the results were reported inaccurately is that none of the output indicators
contained in the program’s performance management plan were formally defined. Instead, the
contractor used an internal spreadsheet to define how it would count training beneficiaries. In
this spreadsheet, leadership and empowerment skills have been included with technical skills—
such as methods for soliciting public input, consultation methods, and design and
implementation of project work plans—in crediting the number of individuals with CSOs and
media outlets trained in management, communications, and planning. Leadership and
empowerment skills are not mentioned in any of the informal definitions for training members of


                                                                                                3
independent agencies, though these OPERACY participants are counted among those trained
in promoting transparency and accountability.

Even by including trainees whose training did not meet the definition, the program still did not
meet its target. More than a year and a half into the program’s implementation, the program
had provided technical training to only 38 individuals, compared with a cumulative target of 972
by the end of the program’s second year.1 This target was reaffirmed in the performance
management plan, which was revised in September 2011, indicating an expectation that the
target would be accomplished.

In reporting OPERACY training as technical capacity development, and without a defined
strategy to shift from OPERACY to the organizational capacity development originally
envisioned, the program risks losing sight of its main objectives. Placing too much emphasis on
OPERACY could adversely affect the program’s ability to strengthen government oversight
agencies, CSOs, and the media and support peace-building efforts. We therefore make the
following recommendations.

    Recommendation 1. We recommend that USAID/Regional Development Mission for
    Asia revise the Sapan Program’s performance management plan to include
    performance indicators that reflect all the program’s activities. All indicators should be
    precisely defined so that reported results accurately reflect intended accomplishments.

    Recommendation 2. We recommend that USAID/Regional Development Mission for
    Asia work with its contractor to develop and implement a strategy to shift from
    OPERACY training to capacity-strengthening activities for independent government
    agencies, civil society organizations, and the media.

Program Reporting Did Not Meet
Standards
The mission and the contractor did not adjust targets in the performance management plan to
reflect a shortened reporting period, nor did they collect baseline data or establish required
targets for all indicators.

Change in Reporting Period Not Reflected in Targets. The program began implementation
in March 2010, completing its first full year in March 2011. In an effort to synchronize the
reporting of program results with the mission’s reporting to Washington—in line with Automated
Directives System (ADS) 203.3.3.1(e)2—the mission shortened the second annual reporting
period to just 5 months, ending on August 31, 2011, so that the program’s progress could be
examined at fiscal year-end on September 30.

Despite this foreshortened reporting period, the targets associated with the program’s reported
results still reflect intended progress for a full year ending March 2012. For example, the
cumulative number of awareness-raising and good-governance campaigns sponsored by the


1
  Another 176 individuals received the OPERACY empowerment training, which does not provide the
technical skills identified in the program’s contract.
2
  ADS 203.3.3.1(e) states that, whenever possible, data should be collected and reported by U.S.
Government fiscal year.


                                                                                                 4
program was only 5 as of August 31, 2011, compared with a 2-year target of 93, as shown in
the following table.

                                 Reported Results Versus Targets

                                          Reported        Cumulative          Percent
                  Indicator
                                          Progress       Year 2 Target     Accomplished*
      Oversight awareness-raising
                                                 3               25                12
      campaigns
      Good-governance, oversight,
                                                 2               68                 3
      and advocacy campaigns
      Total campaigns                            5               93                 5

      People attending joint oversight
                                               210            1,250                17
      awareness-raising campaigns
      People attending good
      governance, oversight, and               168            3,400                 5
      advocacy campaigns
      Total campaign participants              378            4,650                 8
     * Data validated during audit.


While the achievement of 5 campaigns appears to be a significant deficiency in implementation,
the target of 93 campaigns was expected to be accomplished by the end of March 2012, not
August 2011. Unfortunately, we were unable to determine how much of the lack of progress in
achieving these targets stemmed from the discrepancy between reported results and targets
and how much from the delay in implementation caused by the program’s revised approach.

ADS 203.3.5.1 states that, to be useful in managing for results and credible for reporting, data in
the performance management plan should clearly and adequately represent the intended result
(validity) and be sufficiently accurate to present a fair picture of performance (accuracy) and
enable management decision making at the appropriate levels (precision).

Even though the program had a more cautious start than anticipated, the lack of reportable
achievements was exacerbated by reporting progress as of August 2011 against targets for
March 2012. This misalignment casts a particularly negative light on the program and may
inhibit appropriate management decision making regarding extending the program into its 2
option years.

The mission’s ability to make decisions is further impaired by delays in receiving reported
results from the contractor. Specifically, the program’s first annual performance report, due
April 30, 2011, was not provided until August 2011—4 months late. The second annual
performance report had not yet been provided upon the completion of audit fieldwork on
November 2, 2011, despite being due September 30, 2011. We therefore make the following
recommendations.

   Recommendation 3. We recommend that USAID/Regional Development Mission for
   Asia adjust targets in the Sapan Program’s performance management plan to reflect the
   change in the reporting period.




                                                                                                 5
   Recommendation 4. We recommend that USAID/Regional Development Mission for
   Asia require the contractor to meet deadlines for reporting results.

Baseline Data and Targets Not Collected or Established for All Indicators. The program
currently uses 22 output-related indicators (for example, number of people trained) and 10
higher-level outcome-related indicators (examples of which appear below) to monitor its
progress in implementation. While accomplishments (or an absence thereof) were reported on
the 22 output (quantitative) indicators, no baseline data or accomplishments had been formally
reported for the program’s 10 outcome (impact) indicators.

Although baseline information was collected for three outcome indicators relating to perceptions
of independent agency, CSO, and media specialists, this information was not included in the
program’s annual performance reports. The method for collecting data on the remaining seven
outcome indicators (relating to public perceptions of independent agencies and CSOs,
competiveness indices relating to CSOs, and CSO capacity scorecards) had not yet been
developed although the program was at the halfway point. In addition, no targets of any kind
have been established for any of these ten outcome indicators, rendering any existing baseline
data ineffective in determining actual progress toward achieving the intended goals of the
program.

ADS 203.3.3 states that once an award is executed, program staff must complete the
performance management plan (with relevant indicators and baseline data) within the first few
months. This must also occur before major program implementation gets under way.
ADS 203.3.4.5 goes on to say that for each indicator in a performance management plan, the
team should include performance baselines and set targets that are ambitious but can
realistically be achieved within the stated time frame. Targets should be set for the end of the
program and may be set for the years in between. Furthermore, performance indicators should
be available when they are needed to make decisions. If a performance indicator is not
available every year (such as data from perception surveys or capacity scorecards), the
schedule should be noted as a data limitation.

During an interview with audit staff, personnel from both the mission and contractor stated they
saw the tools (such as the provincial competitiveness index) as a means to help independent
agencies and CSOs learn how to assess themselves—not necessarily as measures of the
program’s own progress.

By not setting outcome-related targets, and by not establishing baseline data with which to
compare program progress, the mission hinders its ability to assess the effectiveness of its
efforts. Distinguishing between successful and ineffectual activities also becomes difficult. We
therefore make the following recommendations.

   Recommendation 5. We recommend that USAID/Regional Development Mission for
   Asia establish ambitious but realistic end-of-program targets for all output and outcome
   indicators included in the Sapan Program’s performance management plan.

   Recommendation 6. We recommend that USAID/Regional Development Mission for
   Asia obtain and report baseline data for all ten outcome indicators included in the Sapan
   Program’s performance management plan.




                                                                                               6
Contractor Did Not Adequately
Monitor Activities
According to ADS 203.3.5.1, ―Data Quality Standards,‖ reported data must (1) clearly and
adequately (validly) represent the intended result, (2) be sufficiently precise to present a fair
picture of performance (precision), and (3) be controlled to reduce the possibility that it might be
wrongfully manipulated (integrity). These standards help ensure that the mission is aware of the
strengths and weaknesses of the data being provided.

Because the program is relatively new—just over halfway through its initial 3-year term—
minimal impact data exists to measure programmatic success. Therefore, the audit focused on
outputs in an effort to determine how successful the program has been at providing a foundation
for accomplishing its high-level impact objectives. Accordingly, the audit team attempted to
validate data on training-related indicators.

Training data was not adequately supported. The contractor was unable to provide adequate
supporting documentation for 4 out of 15 training events to show that the participants actually
received program-sponsored training. These participants represented 17 percent of the
reportedly trained individuals. According to one contractor official, this lack of documentation
occurred because of confusion as to whether the contractor or the externally hired trainer should
perform the monitoring. For another 6 training events, the audit found that 9 to 32 percent of
trainees did not attend the training on any given day. Only 5 of the 15 training events were
adequately supported,3 meaning that training could be confirmed for only 19 percent of those
reportedly trained. Examples of inadequate documentation and monitoring follow.

    During a 4-day training event in Northeastern Thailand, 23 of 87 participants (or 26 percent)
    did not attend any part of the event despite receiving payment for transportation and
    lodging.

    The program flew 20 training participants to Indonesia—paying for their flights, hotel stays,
    and per diem—to participate in a 5-day program to expose them to oversight techniques
    used by their Indonesian colleagues. Supporting documents indicate that one person
    attended only the first day, while another did not attend at all. The two were still paid per
    diem, and auditors saw no documentation indicating a reimbursement of per diem or other
    travel expenses.

    In Northern Thailand, three individuals did not attend any part of a 5-day training course, yet
    two of these three people were still paid per diem.

Another weakness in the program’s controls presented itself when the audit team observed a 2-
day program-sponsored conference in Southern Thailand. The audit team members were
asked to sign an attendance sheet along with the other participants, and like all the other
participants were directed by the individual monitoring the attendance sheet to sign for both
days at once because of an apparent weakness in monitoring controls.

The mission and the contractor counted trainees differently. According to the mission, a training
participant must attend at least 75 percent of an event to be considered trained, though without

3
  The 15 training events tested were all of the training activities conducted by the program from its
inception through the end of audit fieldwork on November 1, 2011.


                                                                                                   7
documentation of daily attendance, the mission is unable to determine who has met this
criterion. According to one contractor official, the list of registered participants determines who
and how many were trained; the contractor did not refer to the daily attendance documentation.

Without adequate monitoring controls in place, management cannot determine the effectiveness
of program delivery or the efficiency with which program funds are spent. Therefore, we make
the following recommendations.

   Recommendation 7. We recommend that USAID/Regional Development Mission for
   Asia work with its contractor to improve its procedures for monitoring Sapan Program-
   sponsored activities. These improved procedures would include closely tracking the
   participation of training recipients to verify that they receive intended instruction and are
   not paid when they do not attend.

   Recommendation 8. We recommend that USAID/Regional Development Mission for
   Asia quantify the funds spent on flights, hotels, and per diem for the 28 individuals
   without adequate evidence of attending the sponsored training courses. If the mission
   determines that these expenses are unallowable, it should collect them, as applicable.

Program Follow-Up and
Communication Did Not Meet
Participants’ Needs
Follow-up of program activities increases the likelihood that program participants make proper
use of, or benefit from, the sponsored events. However, program officials did not follow up.

For example, the program sent representatives from CSOs to Jakarta on a study tour to observe
the tools that their Indonesian counterparts use to monitor government budgets and perform
other oversight functions. This study tour received generally positive feedback because of the
exposure to new concepts, but some representatives expressed frustration with the lack of
program follow-up after their return to Thailand. One representative said that the trip was great
at introducing them to monitoring local budget plans to fight corruption. However, after the CSO
representatives’ weaknesses in budget monitoring were pointed out, the program did not
provide budget-monitoring tools for the organizations to begin using or suggestions for obtaining
tools on their own.

In addition, program participants from a range of geographical areas, as well as organizations,
expressed dissatisfaction with the program’s communication. Representatives from all nine of
the CSOs interviewed over the course of the audit listed specific skill sets they hoped to
strengthen: budgetary review skills, organizational management, public policy advocacy, and
media issues development. Some of the representatives said they had requested assistance
from the program on these topics months earlier, but had never gotten a response; others said
no discussion had taken place about services the program could offer in this regard.

Representatives from other entities, such as independent government agencies, also suggested
that the program could improve its communications. A regional director of one of the targeted
independent agencies said the program was sporadic in its communication and had no plan for
interacting with his agency or the CSOs associated with it. During an initial conference with
program officials a year earlier, he asked for support in training techniques and materials to help
convey his agency’s messages to the public. There was no response from program


                                                                                                   8
representatives on this issue. He heard nothing from them for some time, until he was invited to
OPERACY training, which he attended.              The regional director did not receive any
communication after the training and did not know what would happen next. He did not see a
clear objective or plan to do anything with the program despite being told by his agency’s central
office in Bangkok to cooperate with the program.

The mission’s technical representative to the program felt a potential contributor to the
communication problem was that the contractor did not have sufficient staff to handle its
workload. A contractor official also stated that each of the three regions covered by the
program has only one program development officer, which is not enough to implement program
activities in many provinces.

In not following up with program participants to help encourage them to take the desired actions
intended by the sponsored event, the mission loses a valuable tool for strengthening the
capacity of CSOs to serve as checks and balances in the political process and help shape
public policy. Lack of communication can also leave program participants frustrated and less
cooperative in the future. We therefore make the following recommendation.

   Recommendation 9. We recommend that USAID/Regional Development Mission for
   Asia work with its contractor to establish and implement an action plan for
   communicating with program participants and conducting follow-up to maximize the
   effectiveness of sponsored activities.




                                                                                                9
EVALUATION OF MANAGEMENT
COMMENTS
The Office of Inspector General has reviewed the mission’s response to the draft report and
determined that final action has been taken on four of the nine recommendations—1, 2, 5, and
9—while management decisions have been reached on the remaining five recommendations—
3, 4, 6, 7, and 8. Our evaluation of comments on the nine recommendations is shown below.

In response to Recommendation 1, the mission had the contractor revise the performance
management plan, including indicator definitions and targets, which the mission subsequently
approved. We conclude that final action has been taken on this recommendation.

In response to Recommendation 2, the mission stated that while it agreed with the
recommendation, it disagreed with the audit conclusion—suggesting the audit team did not
clearly understand the fundamental role of OPERACY training. We believe the audit team
clearly understood the purpose of providing OPERACY training. The team noted at the time of
fieldwork a tendency for OPERACY training recipients to be counted as recipients of technical
training. We further noted that OPERACY training, which encompasses leadership and
personal empowerment topics, should be seen as preparation for technical skills training, not
the technical training itself.

In December 2011, the mission approved a grant-under-contract to a service provider to
implement the next phase of the capacity-building strategy—a movement from OPERACY to
more specific managerial and technical training. We conclude that final action has been taken
on this recommendation.

In response to Recommendation 3, the mission revised the annual reporting period to end on
September 30. The mission informed the contractor by e-mail and planned to follow up with a
formal letter approving the change. Updated indicator targets in the revised performance
management plan have also been aligned with the new reporting period. We conclude that a
management decision has been reached. Final action will be taken when the letter is issued to
the contractor, which was expected by June 30, 2012.

In response to Recommendation 4, the contractor’s chief of party requested discussion sessions
1 month prior to each reporting period to ensure that data has been collected and is analyzed
for accuracy and completeness. We conclude that a management decision has been reached
on this recommendation. Final action will take place when the mission demonstrates that the
new practice results in timely program reporting.

In response to Recommendation 5, the mission and the contractor drafted a revised
performance management plan, including targets for all output and outcome indicators which
the mission subsequently approved. We conclude that final action has been taken on this
recommendation.

In response to Recommendation 6, the mission has begun discussions with the contractor on
how to collect baseline data and is expected to obtain this data by March 30, 2012. We




                                                                                           10
conclude that a management decision has been reached on this recommendation. Final action
will be taken when baseline data has been obtained for all 10 outcome indicators.

In response to Recommendation 7, the mission agreed with the recommendation to improve
monitoring procedures, but disagreed with the audit conclusions regarding a lack of documented
trainee attendance. However, we believe that with 27 percent of the training events having no
daily attendance documentation at all, and with another 40 percent of the training events
showing a daily absence rate of as much as 32 percent, the audit team could not rely on the
program’s reported results.

The mission stated that it has discussed measures to be taken with the contractor including
quarterly audits of the management information systems data and periodic training to ensure
that staff members are qualified to carry out monitoring and evaluation tasks. The contractor
will provide training in the coming weeks to correct staff weaknesses in this regard. The
contractor has also improved the design of data collection forms and developed guidelines to
ensure that partners use the forms to collect accurate and clear data. We conclude that a
management decision has been reached on this recommendation. Final action will be taken
upon the implementation of a quarterly management information systems audit and monitoring
and evaluation training for implementing staff.

In response to Recommendation 8, the mission determined that $18,086 in costs was
associated with the 28 individuals who at the time of the audit lacked evidence of attending
program-sponsored training. According to the mission, adequate alternative evidence was
provided for all but four of these individuals, resulting in unallowable costs totaling $449 to be
recovered from the contractor. We conclude that a management decision has been reached on
this recommendation and that final action will be taken when the mission presents satisfactory
evidence to demonstrate that disallowed costs have been fully recovered.

In response to Recommendation 9, the mission initiated the recruitment of additional staff
members—a program development specialist and a grants manager—on December 27, 2011,
to address concerns raised during the audit. The program should be able to dedicate more staff
time and energy to engage more personally with participants. We conclude that final action has
been taken on this recommendation.




                                                                                               11
                                                                                        Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
in accordance with our audit objective. We believe that the evidence obtained provides that
reasonable basis.

The purpose of this audit was to determine whether USAID/Regional Development Mission for
Asia’s Sapan Program was achieving its main goals of strengthening government oversight
agencies, CSOs, and the media and supporting peace-building efforts. To implement the
program, USAID awarded a $19.7 million cost-plus-fixed-fee contract to Development
Alternatives Inc. covering the 3-year period from March 29, 2010, through March 30, 2013. As
of July 2011, cumulative obligations and disbursements under the program totaled $13.8 million
and $4.1 million, respectively.

The audit covered program activities over a 19-month period, from the inception of the program
on March 29, 2009, through November 1, 2011. The latest available informally reported data
was for the 18-month period ending September 30, 2011—in lieu of the annual performance
report, which was not yet available. Auditors conducted visits to selected program-supported
areas to interview training participants and grant recipients and to observe program-sponsored
group interactions.

In planning and performing the audit, the audit team assessed management controls related to
management review, proper execution of transactions and events, and performance targets and
indicators. Specifically, we reviewed and evaluated the following:

   Program work plans for fiscal years 2010 and 2011
   FY 2010 Performance Plan and Report
   Certification required under the Federal Managers’ Financial Integrity Act of 1982
   Portfolio review sheets
   Contract and modifications
   Reported results
   Financial reports

Audit fieldwork was performed at USAID/Regional Development Mission for Asia, as well as at
the contractor’s office in Bangkok, from October 3 to November 1, 2011. In that period, the
audit team conducted site visits in five provinces to observe program activities and interview
program participants as well as contractor staff. During these site visits, the auditors obtained
input from 42 staff members from independent government oversight agencies, 13 members of
various Thai CSOs, and 16 other individuals also involved with the program including university
staff, university students, and local government officials.




                                                                                               12
                                                                                      Appendix I


Methodology
To determine whether the program was achieving its main goals, the audit team initially
interviewed key staff at USAID/Regional Development Mission for Asia and at the contractor’s
office in Bangkok to gain an understanding of the program, the key players and their roles and
responsibilities, and the reporting procedures and controls for monitoring the program.
Additional work to answer the audit objective entailed conducting site visits to selected
provinces to interview targeted program participants and observe program-sponsored activities.
Auditors reviewed and analyzed documents to validate data reported under selected
performance indicators.

The audit visited 5 of the 11 provinces where the program operates.4 These activities largely
included interviews with training recipients as well as with other stakeholders engaged with the
program on some level, such as grant recipients. The audit also made an effort to validate
reported results for selected performance indicators through testing and analytical procedures.

To determine the reliability of computer-processed data received from the mission in support of
its obligated and disbursed amounts, we reviewed prior audits of the mission’s financial
statements and internal controls. To determine the reliability of computer-processed data related
to the program’s output activities contained in the contractor’s information management system,
we selected all 15 of the program’s training events and all five of its awareness campaigns
within the database and verified reported attendance. Based on the audit procedures
performed, we considered the computer-processed data used during the audit to be reliable,
though the reported training figures proved unreliable because of insufficient documentation of
attendance.

The audit team established a materiality threshold of 85 percent to assess the test results. For
example, if at least 85 percent of tested results data reported under a specific performance
indicator for a selected province were adequately supported, the auditors concluded that the
reported results were reasonably accurate.




4
  The audit team conducted fieldwork in Bangkok and Chiang Mai as well as the three high-priority
provinces in the deep south—Songkhla, Pattani, and Yala.


                                                                                              13
                                                                                 Appendix II



MANAGEMENT COMMENTS



                                                                           February 9, 2011
MEMORADUM


TO:                  William Murphy, RIG/Manila


FROM:                Michael Yates, USAID/RDMA
                     Mission Director
SUBJECT:             Management Decisions
                     Audit of USAID/Regional Development Mission for Asia’s Sapan Program
                     (Report Number 5-493-12-00X-P)

REFERENCE: Mission’s response to the audit recommendations



Please find below the actions planned/taken by the Mission to reach management decisions.

RDMA Management Response to Recommendations

I. Overall Comments

RDMA management very much appreciates the thoroughness and professionalism with which
the audit was conducted. We appreciate the useful recommendations which will ensure a
strengthened program moving into the future.

II. Comments on Recommendations


Recommendation No. 1: Revise the program’s performance management plan to include
performance indicators that reflect all the program’s activities, including OPERACY
training provided to independent agencies and civil society organizations, as well as
sponsored activities involving universities and other organizations that are not the
program’s primary focus. All indicators should be precisely defined to ensure reported
results accurately reflect intended accomplishments (page 5)




                                                                                            14
                                                                                        Appendix II


Management Response: RDMA Management agrees with this recommendation. The DAI-
Sapan and RDMA/GVP management team met on 13 December 2011 for an all-day retreat
during which time the program’s Performance Management Plan was revised, definitions and
targets updated. The revised PMP was developed and drafted in January 2012 and has been
presented to the COR for approval. The revised PMP includes performance indicators that
reflect all the program’s activities.

RDMA management therefore believes that the final action has been taken and requests that
this recommendation be closed on issuance of the report.

Supporting Documentation:
       Email from DAI-Sapan COP, David Pottebaum, of 03 January 2012 with attachment
       “Sapan Program Performance Monitoring Indicators – Program Outcomes” for team
       comment by 13 January 2012.
       Email from DAI-Sapan COP, David Pottebaum, of 30 December 2012 with attachment
       “Sapan Output Indicators – Sapan Custom and USG Standard” for team comment by 13
       January 2012.
       Copy of updated PMP.


Recommendation No. 2: Develop and implement a strategy to transition from OPERACY
training to institutional capacity strengthening activities for independent government
agencies, civil society organizations and media (page 6).

Management Response: RDMA management agrees with this recommendation, but disagrees
with the audit conclusions. A lack of clarity in terms of the fundamental role of OPERACY as
part of an integrated approach to capacity building for government agencies, civil society
organizations and media may have contributed to the observations presented. Indeed,
OPERACY (which includes personal empowerment and leadership training components) has
been identified from the outset of the program as an initial element of institutional capacity
strengthening (as noted in the contract Section C.6.2.2) followed by further management and
operational training.

We view OPERACY as a key element of a continuum of critical organizational skills building and
specifically a foundation for subsequent training on other managerial and technical themes.
OPERACY includes modules on transparency, accountability and anti-corruption. Effective
leaders are needed to facilitate and promote good governance and citizen involvement in local
governance, and Sapan emphasizes building the capacity of leaders across political and social
divides. Leaders are needed who have an ability to think and act strategically, using a systemic
approach to reveal connections and strategic leverage points, to frame issues in new ways and
to assess stakeholder interests. It is important they also have the interpersonal skills required to
facilitate productive work – such as facilitation, negotiation and mediation skills, particularly
important in a politically divided society. Finally, and perhaps most importantly, leaders are
needed who have a clear sense of connectedness, high personal integrity and strong ethical
conduct.

Sapan’s strategic approach begins by training local leaders to empower stakeholders in their
locale by providing them hope and direction, to align them behind a common goal and to resolve
conflicts as they arise, before moving on to more ―hard‖ skills areas (such as change
management, budgeting, etc.). Central to this is helping leaders to understand more fully their


                                                                                                 15
                                                                                       Appendix II


own perceptions and expectations. Through greater self-awareness, they can learn that
everyone has choices in forming their expectations and sense of self and that there are always
positive and helpful ways of perceiving and responding to others. Self-awareness and
leadership training is provided to persons at all levels of society to create a critical mass of
people prepared to assist communities to engage with local government to improve governance
in their areas. Without this foundation, managerial and technical training will have less impact
than desired. This approach has guided Sapan training activities since the outset of the
Program.

The OPERACY training has to date largely been provided to the Area Working Groups
(comprised of CSO leaders, IA officials, students and University partners) as well as to a limited
number of CSOs on an institutional level (i.e. Pratchatai, Women for Peace Association,
Luukrieng Group ). As the results of the University-based research and assessment of DG-
related CSOs is completed and presented in February 2012, Sapan will have identified a cadre
of CSOs working on DG-related issues to be trained in OPERACY and additional managerial
and technical skills. Sapan has worked through Universities to complete this assessment and
identify these CSOs as a means to ensure we do no harm, specifically to ensure that the
program is not seen as ―yellow‖ or ―red‖ by approaching one color group first. (Note that the
political divide in Thailand between so-called ―yellow shirts‖ and ―red shirts‖ remains deep. This
has been provided in details in annual reports.)

While the program has been training key CSO/IA/media leaders in OPERACY and
strengthening the ability of a cadre of Thai OPERACY trainers to provide the initial building
blocks of our training program to Thai CSOs more broadly (and specifically those identified
through the CSO assessments noted above), we have had a view toward the next range of
modules in the training continuum. A key component of the University-led grants is a CSO
assessment in which a comprehensive approach is used to assess the capacity and needs of
local CSOs. Training programs will be designed around the results of these assessments.

To this end, Sapan undertook a Market Survey of Thai Service Providers to identify service
delivery options for the managerial and technical training that would flow from OPERACY and
based upon the needs identified through the CSO assessments. As that document indicates, we
have found it more difficult than previously envisioned to identify organizations – both non-profit
and for-profit – to deliver that training.

As noted in the annual report: Sapan learned that there are very few organizations that can (or
want to) provide basic training to CSOs on themes such as financial accounting, budget
management, human resource development, and project design and management. Lack of
donor activity in Thailand over the past decade may be one reason for the lack of service
providers (as donors tend to support CSO capacity building programs; without donors to do so,
few CSOs would have the finances to invest in such training). Sapan also learned that casting a
broad net in a general search for service providers may not be the most efficient method for
finding partners. Rather, it may be better to develop a clear scope of work and associated
vender requirements and issue a specific, public request for proposals.

As a result, Sapan will conduct targeted searches for service providers as needs arise, using
advertised open procurement processes to ensure transparency and accountability, and to
facilitate selection of the most qualified service provider.

The contractor undertook multiple rounds of Expressions-of-Interest from possible vendors. In
December 2011, the CTO approved a grant-under-contract to the first of those service providers


                                                                                                16
                                                                                        Appendix II


to implement the next phase of the capacity-building strategy, a movement from OPERACY to
more specific managerial and technical training.

RDMA management therefore believes that the final action has been taken and requests that
this recommendation be closed on issuance of the report.

Supporting Documentation:
       Sapan Program Contract, Section C.6.2.2
       Deliverable Market Survey of Thai Service Providers


Recommendation No. 3: Align the timing of reported results and targets within the
program’s performance management plan to ensure reported results directly relate to
comparable expectations (page 7).

Management Response: RDMA Management agrees with this recommendation. On 15
December 2011, DAI-Sapan COP officially requested to the COR that the reporting period for
annual reports and indicators be re-aligned to the following schedule which itself aligns with
USAID reporting periods and the PMP (should option years be exercised):
               March 29, 2010 – March 31, 2011 (completed)
               April 1, 2011 – September 30, 2011 (completed)
               October 1, 2011 – September 30, 2012
               October 1, 2012 – September 30, 2013
               October 1, 2013 – September 30, 2014
               October 1, 2014 – March 28, 2015
On 04 January 2012, the RCO indicated to the COR that the change in reporting dates can be
documented initially through a letter to DAI and later incorporated formally into the next contract
modification.

RDMA management therefore believes that the final action has been taken and requests that
this recommendation be closed on issuance of the report.

Supporting Documentation:
       Email from DAI-Sapan COP, David Pottebaum, of 15 December 2011;
       Email from RCO Thomas Stephens, of 04 January 2012.


Recommendation No. 4: Take steps to ensure required reporting is provided and
approved in a timely manner (page 7).

Management Response: RDMA Management agrees with this recommendation. As noted
under recommendation 3, above, the reporting periods (narrative and on PMP indicators) have
been changed to ensure Program information is delivered to USAID in time to respond to
internal reporting deadlines and requirements. In addition, the DAI-Sapan COP has requested
that DAI and USAID hold discussion sessions one month prior to each reporting period to
ensure data have been collected and are being analyzed for accuracy and completeness and
that Program highlights are adequately reported.

RDMA management notes that Annual Reports are not the main source of information to


                                                                                                 17
                                                                                   Appendix II


USAID/RDMA used to guide program strategy and decision-making. The Contractor sends
―Fortnightly Highlights‖ to the USAID COR as the main and most regular source of information
on program activities and achievements. This information is shared with others in USAID/RDMA
and Embassy to inform other internal stakeholders of the actions and intent of the Sapan
Program. During the period November 2010 to October 2011, the Contractor delivered 23
Fortnightly Reports to the USAID COR, including photos, stakeholder quotes on their
engagement with the program and links to news items on the web related to program activities.

Likewise, financial data are delivered regularly to the USAID COR through monthly ―Budget
Snapshots.‖ These include summaries of past expenditures, pipeline estimates and complete
lists of completed, on-going and planned activities. These reports have been provided since
March 2011, corresponding to the end of the first year of the contract and beginning of Work
Plan 3.

RDMA management therefore believes that the final action has been taken and requests that
this recommendation be closed on issuance of the report.


Supporting Documentation:
       Email from DAI-Sapan COP, David Pottebaum, of 11 January 2012.


Recommendation No.5: Establish ambitious, but realistic end-of-program targets for all
output and outcome indicators included in the Sapan Program’s performance
management plan (page 8).

Management Response: RDMA Management agrees with this recommendation. The DAI-
Sapan and RDMA/GVP management team met on 13 December 2011 for an all-day retreat
during which time the program’s Performance Management Plan was revised, and targets were
identified for all output and outcome indicators. The PMP has been finalized as of January
2012. Further discussions were held to refine the targets and indicators at a senior
management meeting on 18 January 2012. The PMP has been finalized and is attached. It will
be reviewed annually to update indicators and targets as necessary and assure progress toward
Sapan’s end-of-project goals.

RDMA management therefore believes that the final action has been taken and requests that
this recommendation be closed on issuance of the report.


Supporting Documentation:
       Email from DAI-Sapan COP, David Pottebaum, of 16 January 2012 with attachment
       “Sapan Program Performance Monitoring Indicators – Program Outcomes” for
       discussion at a senior management meeting on 18 January 2012.
       Email from DAI-Sapan COP, David Pottebaum, of 10 January 2012 with attachment
       “Sapan Output Indicators – Sapan Custom and indicators” for team comment by 13
       January 2012.
       Copy of final PMP




                                                                                               18
                                                                                       Appendix II


Recommendation No. 6: Obtain and report baseline data for all 10 outcome indicators
included in the Sapan Program’s performance management plan (page 8).

Management Response: RDMA Management agrees with this recommendation. The DAI-
Sapan and RDMA/GVP management team met on 13 December 2011 for an all-day retreat
during which time the program’s Performance Management Plan was revised, and discussions
regarding baseline data occurred. For 7 of the 10 indicators, the team either has or is collecting
the baseline data. For the remaining 3 others, the team is still discussing what needs to be
done to accomplish this. The team has set 30 March 2012 as the target for completing of all
baseline data. The PMP has been finalized as of January 2012.

Of the 7 indicators, 2 had been developed and measurements were being taken at the time of
the audit – CSO Capacity Scorecards (indicators 2.3.4. and 3.3.2.). University partners were
conducting assessments of CSOs in their locales using the questionnaire (long form scorecard)
at the time of the audit (as part of the University-led grant activities). This scorecard was
discussed in the December PMP meeting. The revised scorecard was delivered to USAID for
review and comment on 13 January 2012.

The assessment and documenting of baseline information could not have been completed
earlier because core CSO partners had not been selected (the scorecards are to be used to
track core partner development over the course of the program). The length of time required to
select core partners was due in part to difficulties finding capable and interested organizations
described elsewhere in this report. It was also due to the tactic of working with University
partners to engage local CSOs, which necessitated a longer calendar of events to arrive at the
final selection of CSO partners.

In addition, work to collect baseline data on Youth Perceptions of Social and Economic
Opportunities (indicator 3.3.3.) was ongoing through a grant with The Asia Foundation which
has significant survey experience in southern Thailand.

At the time of the audit, 6 of 10 proposed outcome indicators had been designed or drafted (i.e.,
designed, as in the case of panel scores; drafted, as in the case of Youth Perceptions, which
will need to be clarified and shortened at the end of the survey and review of data that can be
used to measure progress) and baseline data had been or were being collected.

Of the remaining 4 indicators, 1 has been dropped following discussions in December 2011
(due to difficulty in obtaining useful data in a timely manner). The other three are being designed
and data will be collected by March 2011. Of these, it is important to note that baseline data
could not have been collected earlier for 2 indicators – Public Perception of Partner CSOs and
Public Perception of CSO Capacity to Promote Peace – because core CSO partners had not
been selected.

Note that the revised list of Outcome Indicators includes 8 Indicators (2 indicators for CSO
Scorecards have been consolidated; Indicator on Provincial Governance Index has been
dropped). Targets for 5 indicators have been established; Targets for 3 remaining will be
established by March 2012.


Supporting Documentation:
       Email from DAI-Sapan COP, David Pottebaum, of 03 January 2012 with attachment


                                                                                                19
                                                                                      Appendix II


       “Sapan Program Performance Monitoring Indicators – Program Outcomes” for team
       comment by 13 January 2012.
       Email from DAI-Sapan COP, David Pottebaum, of 16 January 2012 with attachment
       “Sapan PMP outcome indicators – Program outcomes Revised 13 January 2012” for
       discussion at team meeting on 18 January 2012
       Copy of final PMP.



Recommendation No. 7: Improve its monitoring procedures over Sapan-sponsored
activities to ensure actual accomplishments—not projected—are reported. These
improved procedures would also closely track the participation of training recipients to
ensure they receive intended content and are not paid when they do not attend (page 9).

Management Response: RDMA management agrees with the recommendation to improve
monitoring procedures over Sapan-sponsored activities. However, RDMA disagrees with the
audit conclusions that (1) projected accomplishments, not actual, were reported and (2)
participants did not attend trainings. RDMA maintains that OPERACY is a core element to the
Sapan training program (as detailed in RDMA’s response to Recommendation Number 2).
Further, the Contractor has provided evidence that the vast majority of participants attended the
trainings (as set forth in RDMA’s response to Recommendation Number 8).

We recognize the importance of the RIG’s observation and acknowledge that monitoring
information provided to the Audit Team was not clearly presented. The Contractor has improved
the design and use of data collection forms, such as sign-in sheets and other participation data,
and has developed guidelines to ensure that the vendor/partners collect accurate and clear
data. RDMA technical staff will monitor implementation of these guidelines during their field
monitoring visits.

RDMA and the Contractor takes data accuracy and clarity very seriously and will take all steps
necessary to ensure quality control and have discussed measures to be taken with the COR.
For example, quarterly audits of MIS data will be conducted and periodic staff training provided
to ensure staff is qualified to carryout M&E tasks. The Contractor has held meetings with staff
and the COR on this matter, and will provide training in the coming weeks to correct potential
staff weaknesses in this regard.

RDMA management therefore believes that the final action has been taken and requests that
this recommendation be closed on issuance of the report.




                                                                                               20
                                                                                     Appendix II



Recommendation No. 8: Quantify the funds spent on flights, hotels and per diem for the
28 individuals without adequate evidence of attending program-sponsored training
courses. If the contractor is unable to provide the mission with sufficient alternative
evidence that these individuals attended the training events, these costs should be
recovered from the contractor. (page 9).

Management Response: RDMA management agrees with the recommendation. The amount
of funds spent on flights, hotels and per diem for the 28 individuals for which the audit report
observed inadequate evidence of attending program-sponsored training courses amounts to
$18,086.06.

RDMA management went through significant documentation that provided us with sufficient
alternative evidence; we have found that there were four persons who received payments but
either did not attend the course as required (3 persons) or DAI could not obtain evidence to
support attendance (1 person). The total payments provided to these persons are $449 which
will be recovered from DAI. The RDMA Contracting Officer has reviewed and accepted this
alternative evidence and these costs are no longer questioned.

In addition, Contractor has strengthened documentation systems, including emphasizing greater
training of subcontractors and grantees to accurately record attendance.

RDMA management therefore believes that the final action has been taken and requests that
this recommendation be closed on issuance of the report.


Supporting Documentation:
           Email from DAI-Sapan Operations Manager, Sherwin Reyes, of 20 January 2012
           with attachment [Study Trip on Local Governance in Indonesia for CSO Leaders, 11-
           19 September 2011]
           Email from DAI-Sapan Operations Manager, Sherwin Reyes, of 20 January 2012
           with attachment [Personal Empowerment and Self Awareness Training (OPERACY)
           for IA, Government and Civil Society Representatives – Northern Thailand]
           Email from DAI-Sapan Operations Manager, Sherwin Reyes, of 31 January 2012
           with attachment [Personal Empowerment and Self Awareness Training (OPERACY)
           for University Area Working Groups, 15-19 June 2011]
           Email from DAI-Sapan Operations Manager, Sherwin Reyes, of 6 February 2012
           with attachment [Follow-up memo for record regarding Personal Empowerment and
           Self Awareness Training (OPERACY) for University Area Working Groups, 15-19
           June 2011]
           Copy of memo requesting Contracting Officer’s determination of allowability of
           questioned cost.




                                                                                               21
                                                                                         Appendix II



Recommendation No. 9: Establish and implement an action plan to ensure a consistent
and effective level of communication with program participants and to conduct follow-up
after implementing activities to maximize the effectiveness of sponsored activities (page
10).

Management Response: RDMA Management agrees with this recommendation. As of 27
December 2011, DAI-Sapan has already initiated the recruitment of additional staff – a Program
Development Specialist and a Grants Manager – to directly address concerns raised in the draft
RIG review to ensure an effective level of communication with program participants. This also
responds to the project’s own experience as documented in the second annual report on pages
8-9: “Technical skills development and measures. At the summary session for the Indonesia
study tour, Sapan spoke with participants on several topics, including whether they were
interested to gain skills in using tools they had seen or heard of in the course of the visit.
Participants expressed interest, but on return to Thailand had not presented proposals to Sapan
for action and funding. This highlights the challenge Sapan faces in helping local CSOs turn
ideas into proposals, and proposals into action. More mentoring and guidance are required than
was expected at the outset of the Program. In the coming period, Sapan will dedicate more staff
time and energy to working with CSO representatives in this regard. At the same time, Sapan
will reconsider its overall staffing profile, and how this might limit Program response the needs
of local CSOs, and determine whether additional professional staff are required.”

RDMA management recognizes that the audit team had an opportunity to attend one of the
follow-up activities from the Indonesia study tour. While the study tour itself took place between
11-19 September 2011, three weeks later from 12-13 October the first follow-up event occurred
at the University-led Grant National Meeting in Songkhla which the audit team attended. This
was designed as the first ―follow-up‖ event after the tour, a chance to share findings with their
colleagues. The second ―follow-up‖ activity is the design of measures (i.e., tools), within the
University-led grant projects, that the participants might use to address local governance issues.
Budget monitoring might be one tool used in this process. This design and testing process is
scheduled to take place in November 2011 through February 2012.

It should also be noted that at the summary session for this study tour (held on the last day in
Indonesia), USAID/RDMA and Contractor talked at length with participants on several topics,
including whether they were interested to gain skills in using such tools and how they might do
so. Participants are working with Universities in their locales as members of ―area working
groups.‖ This is a key element of the governance structure of the university-led grant approach.
These groups are now beginning to consider tools they would like to build or become experts in
using to address local governance issues (including budget monitoring). Thus, the support and
foundation for the first steps had been laid before the participants traveled to Indonesia (i.e., the
University-led grants and area working groups).

RDMA management and contractor have expended considerable time and effort over the first
period of project implementing to further refine understanding and appreciation for the operating
environment. What has become clear is the need for extensive and more than planned ―hand-
holding‖ of CSO partners and partner organizations. Unlike other country context where
USAID/RDMA and contractor staff have worked in Southeast Asia, it has been noticed that Thai
CSOs require much more time-consuming mentoring and coaxing than counterparts in other
countries. Following the Indonesia study tour for example, Sapan received not one proposal or
concept note from any participants for follow-on activities. Perhaps our expectations were too



                                                                                                   22
                                                                                       Appendix II


high in this regard – as one of the key principles of Sapan is local ownership and agenda-
setting. In future, Sapan will dedicate more staff time and energy, including additional
professional staff currently being recruited, to be able to more personally engage participants in
this manner.

On several occasions early in the program Contractor staff held meetings with CSO groups to
discuss their training needs and priorities. Discussion included services (training themes) Sapan
might support. In these meetings, CSO representatives expressed their desire for hands-on
training that would lead to tangible action to address local needs. Based on this, Sapan
designed the University-led grants to provide in-the-field training to CSO representatives, and to
develop and test tools to address local governance issues. This informal training and tool
development approach may not be perceived by CSO stakeholders as ―training‖ or ―follow-on
actions,‖ when, in fact, they are so and are being done in the way the stakeholders requested
themselves.

USAID/RDMA and the Contractor held many meetings in the first year of the program with local
CSOs and IAs. Discussion focused introducing Sapan to these stakeholders and on seeking
input on program strategy and activities. CSO and IA needs and priorities were also discussed.
As these were introductory meetings, Sapan had no expectation of quick follow-up with the
individuals or organizations which met at that time. These persons and groups may have
believed otherwise (but, also worth nothing, this did not lead to written proposals for support).
Again, the Contractor will discuss this matter with staff and ensure that expectations are not
raised unrealistically during future meetings with local organizations.

RDMA management therefore believes that the final action has been taken and requests that
this recommendation be closed on issuance of the report.

Supporting Documentation:

   •   Email from DAI-Sapan COP, David Pottebaum, of 7 February 2012



The Mission shall request for M/CFO/APC’s closure of all recommendations upon RIG/Manila’s
concurrence of the Mission’s management decisions.




                                                                                                23
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
